      LEGAL SERVICES CORPORATION
      OFFICE OF INSPECTOR GENERAL




       AUDIT OF GRANTEE'S
  PRIVATE ATTORNEY INVOLVEMENT
            PROGRAM




Grantee:
           II"       LSC
           Central California Legal Services
           Recipient No. 805060



             Report No. AU04-05

                 August 2004

                 www.oiq.lsc.gov
                                                                           Legal Services Corporation
                                                                           Office of lnspector General




                                                August 10,2004

Mr. Chris A. Schneider
Executive Director
Central California Legal Services
1999 Tuolumne St., Suite 700
Fresno, Ca. 93721

Dear Mr. Schneider:

      Enclosed is our final audit report of Central California Legal Services' compliance
with private attorney involvement (PAI) requirements of 45 CFR Part 1614. Your
comments on the draft report are included as Appendix 1. The final report includes five
recommendations.

        Your response to the draft report indicates that you have substantially agreed
with three of the five recommendations made; addressing oversight and follow-up,
productivity and statistical reporting. We have considered your response on the
recommendation addressing PA1 expenditures and the related recommendation on the
need to request a waiver. We do not find that your response supports the allowance of
any of the expenditures identified in this report in PA1 for 2002. All of the
recommendations will remain open until we receive a corrective action plan
documenting the corrective action taken. Please provide us with the plan within 30 days
of this letter.

      A copy of this report is also being sent to the Chair of the Board of Directors of
your program and to LSC management.

       Thank you and all your staff for the cooperation and courtesy extended to the
auditors. If you have any questions about the report, please contact David L. Gellman at
202-295-1665 or me at 202-295-1651.

                                               Sincerely,

                                             &+df&-
                                               Leonard J. Koczur
                                               Acting lnspector General

Enclosure

cc:   Lecral Services Corporation
      John Eidleman
      Michael Genz
                                                                          3333 K Street. NW, 3rd Floor
                                                                          Washington, DC 20007-3522
                                                                          Ph: 202.295.1500 Fax: 202.337.661 6
                                                                          www.olg.lsc.gov
      LEGAL SERVICES CORPORATION
      OFFICE OF INSPECTOR GENERAL



       AUDIT OF GRANTEE'S
  PRIVATE ATTORNEY INVOLVEMENT
             PROGRAM




Grantee:
           II"       LSC
           Central California Legal Services
           Recipient No. 805060



             Report No. AU04-05

                  August 2004

                 www.oiq.lsc.qov
                                    TABLE OF CONTENTS

                                                                                                         Page

RESULTS OF AUDIT ...........................................................................................I

         OVERSIGHT AND FOLLOW-UP ..............................................................1
         RECOMMENDATION ...............................................................................2

         PRODUCTIVITY.........................................................................................
                                                                                                           2
         RECOMMENDATION ................................................................................   4

         PA1 EXPENDITURES................................................................................
                                                                                                        4
         RECOMMENDATIONS .............................................................................. 5

         STATISTICAL REPORT ............................................................................6
         RECOMMENDATION ................................................................................6

BACKGROUND   ..................................................................................................6
OBJECTIVES. SCOPE and METHODOLOGY ...................................................6

SUMMARY OF GRANTEE'S COMMENTS ON DRAFT
REPORT AND OIG'S RESPONSE............................................................
                                                                                   8

APPENDIX I .Grantee Comments            ...............................................................I .1
APPENDIX II =        OIG On-Site Audit Team ....................................................... ll .2
                             RESULTS OF AUDIT

The Legal Services Corporation (LSC), Office of Inspector General (OIG)
conducted this audit to evaluate Central California Legal Services (grantee)
compliance with the Private Attorney Involvement (PAI) regulation (45 CFR
1614). This regulation requires the grantee to spend an amount equal to
12.5 percent of its basic field grant to involve private attorneys in providing legal
services to clients. Grantees are to provide LSC statistics on the private
attorneys involved and the programs must operate efficiently and effectively.

The grantee did not comply with all requirements of 45 CFR 1614, and related
statistical reporting requirements. Specifically the grantee:

       did not provide adequate oversight and follow-up for cases referred to
       private attorneys (1614.3(d)(3)).

       did not close sufficient PA1 cases to meet the goal that the market value of
       PA1 activities substantially exceeded the costs as stated in (1614.l(c))
       (Productivity).

       overstated PA1 expenditures and did not meet the 12.5 percent
       expenditure requirement for 2002 by a small amount (1614. I(a)).

       did not report accurate statistical data on its PA1 program to LSC


Each finding is discussed in detail below.


OVERSIGHT AND FOLLOW-UP

The grantee did not provide adequate documented oversight or follow-up to
ensure the prompt disposition of cases referred to private attorneys by the
Fresno office as required by Section 1614.3(d)(3). The problem was only in the
Fresno office. The Visalia Branch Office provided adequate oversight and follow-
UP.

A sample of ten Fresno office cases was selected for review. The file for one
case could not be located and, therefore, was not reviewed. Although the
grantee followed up on the remaining nine cases between November 2003 and
January 2004, prior to November, there were significant gaps in the follow-up for
most cases. The grantee did not contact the private attorneys handling seven of
the cases for over six months. Two examples illustrate the problem:
       Case A was opened and assigned to a private attorney in August 2001.
       The attorney was not contacted until July 2002, and the only subsequent
       contact occurred in December 2003.

       Case B was opened and assigned to a private attorney in February 2002.
       Follow-up with the attorney did not occur until August 2002. The next
       follow-up occurred in December 2003.

In commenting on the draft report, the grantee stated that the former CCLS PA1
coordinator received "numerous informal updates on the cases" and that CCLS
had implemented in October 2003 procedures requiring the staff to follow up with
private attorneys to determine the status of cases at least quarterly. As stated
previously, however, there was no documentation of follow-up for extended
periods of time in 2002 and 2003. Over 90 percent of the PA1 cases are brief
services, requiring brief follow-up work. Periodically following up on the relatively
few extended services cases should not be time consuming.

The OIG recognizes that following up on the status of PA1 cases presents some
difficult challenges for the grantee. In this grantee's situation, the private
attorneysare generally taking the cases pro bono and their involvement expands
the availability of legal services to eligible clients. The OIG understands that the
grantee certainly does not want to alienate the attorneys and have them leave
the program. However, the follow-up procedures outlined in the prior paragraph
should not be an undue burden to either the private attorneys or the grantee's
staff, and should ensure the timely disposition of cases as required by the
regulation.


RECOMMENDATION

We recommend that the Executive Director

   1. Monitor procedures to ensure staff follows up at least quarterly with private
      attorneys on the status of PA1 cases and documents the contacts.


PRODUCTIVITY

In 2002, the grantee closed a small number of PA1 cases relative to the amount
of money invested in the PA1 program. The grantee reported 165 closed cases
for the year, with adjusted expenditures of $263,292. This performance is
significantly below the national average.

The purpose of Section 1614 is to ensure that grantees involve private attorneys
in the delivery of legal services to clients. In following this mandate, grantees are
encouraged to ensure that the market value of services provided by private
attorneys exceeds the costs of providing the services. One method of measuring
the market value of legal services provided is to evaluate case productivity-both
the number of cases and the level of service provided in those cases. There are
some mitigating factors that could reduce the number of cases closed: (1) some
PA1 activities such as community education do not directly generate PA1 cases;
(2) a high percentage of extended service cases may contribute toward lowering
the total number of cases; and (3) there is some variation in the time and effort
required for cases within the same "level of service" category.

The grantee closed 165 PA1 cases in 2002, which represented 2.38 percent of
the total cases closed by the grantee. For 2002, the national average for PA1
case closures as a percentage of total case closures was 11.82 percent. The
small number of closed PA1 cases was not attributable to the mitigating factors
identified above. The grantee reported that 15 of its 165 PA1 cases, or about
9.1 percent, were extended service cases.

For 2002, the national average for PA1 extended service cases as a percentage
of total PA1 cases was about 31.7 percent. The grantee's adjusted charges to
PA1 for 2002, totaled $263,292. Most of this amount resulted from direct and
indirect charges for two full-time staff dedicated to PAI. As a result, the grantee's
cost per PA1 case was $1,595 for 2002, compared to the national average of
$386 per PA1 case.

The cost per PA1 case in the Visalia office was substantially lower than in the
Fresno office. A paralegal in Visalia dedicated 200 hours per year to
coordinating a pro se clinic and generated 56 PA1 cases. The cost per case was
less than $200 per case. The 109 cases reported by the Fresno office cost over
$2,300 per case.

The grantee's PA1 pro bono program is focused on providing legal services
directly to clients. It does not include co-counseling cases or community legal
education, activities that do not generate cases. Most of the legal services
provided are limited services cases. Case productivity, therefore, should at least
approximate the national average.

The Executive Director stated that he was implementing some initiatives to
encourage more participation by private attorneys. Plans were being made to
open a clinic at a senior center where volunteer attorneys could provide legal
services to the elderly. The State Bar Association was considering permitting
"unbundling cases." This would enable the grantee to assign the longer-term
aspects of a case to staff attorneys, resulting in a shorter term commitment for
pro bono attorneys. The recent establishment of a video training center in the
Fresno office would provide additional training for private attorneys and,
according to the Executive Director, would encourage greater participation in the
pro bono program. The hiring of an attorney in October 2003 as Director of the
pro bono program (the former coordinator was not an attorney) also would
encourage more private attorneys to participate in the program, in the Executive
Director's view.


RECOMMENDATION

We recommend that the Executive Director:

2.     Monitor the PA1 program to evaluate the effectiveness of the new
       initiatives and consider adopting alternative methods (such as reduced fee
       contracts) for delivering legal services.


PA1 EXPENDITURES


The grantee's PA1 expenditures were $9,356 less than required. Part 1614.l(a)
requires grantees to devote an amount equal to at least 12.5 percent of their
annualized basic field grant to PAI. The grantee's 2002 annualized grant was
$2,181,186, and its PA1 requirement was $272,648. The grantee's PA1
expenditures were $9,356 less than required, resulting in the grantee expending
12.07% rather than 12.5% of its annualized grant. This occurred because PA1
expenditures were overstated by $82,712.

The grantee's financial records showed that $346,004 was spent on PA1
activities. This amount was overstated by $82,712 as shown in the following
chart:



Reported PA1 Expenditures

      Adjustments:         Salary overcharges        $64,547
                           Consulting contract        16,165
                           Newsletter                  2.000
Total Adjustments

Adjusted PA1 Expenditures



During the audit, the grantee identified $64,547 in salaries and related benefits
that were improperly charged to PAI. The entire cost of salaries and benefits for
two intake clerks was charged to PAI. The OIG identified an additional $18,165
improperly charged to PAI. The grantee charged $16,165 to PA1 for consulting
fees paid to an out-of-state contractor for advice on improving fundraising. The
consultant's work was unrelated to PA1 activities. The grantee also charged
$2,600 of the $4,000 total cost of quarterly newsletters to the PA1 program. The
newsletters were directed to a broad array of organizations and clients served by
the grantee. PA1 should have been charged in proportion to its percentage of
total funding. We estimated that $600 was the appropriate amount that should
have been allocated to PAI.

The overcharges occurred because the grantee does not have procedures
requiring the periodic review of costs charged to the PA1 program. Establishing
such procedures should allow the detection of erroneous PA1 charges, and
ensure that in the future, the grantee will meet the PA1 requirement.

In addition to the overcharges, the grantee improperly calculated the amount that
it was required to spend on PAI. Section 1614.l(a) requires grantees to spend
an amount equal to at least 12.5 percent of their annualized basic field grant on
PAI. The recipient, however, used the amount received from LSC during 2002,
$1,837,618, instead of the annualized basic field grant of $2,181,186 to compute
its PA1 requirement. As a result, the PA1 requirement was understated by
$42,946 as shown in the following calculation:




      Understatement       = $42,946

The incorrect calculation apparently resulted from the grantee's
misunderstanding of the PA1 requirement. We informed the grantee of the
correct way to compute the amount that must be spent on PA1 and do not expect
the problem to reoccur.


RECOMMENDATIONS

We recommend that the Executive Director:

3.    Establish procedures requiring the individual responsible for the financial
      system to periodically review direct and indirect charges to PA1 to
      ensure they are accurate and reasonable.

4.    Request a waiver of the PA1 requirement from the Office of Compliance
      and Enforcement in accordance with Part 1614.6.
STATISTICAL REPORT

The grantee's statistics on the attorneys participating in the PA1 program for 2002
were inaccurate. LSC requires grantees to annually submit the J-I Report-
Components of PAI. Grantees are to report the number of attorneys that agreed
to participate in the PA1 program and the number of attorneys that accepted
referrals during the reporting period. For 2002, the grantee reported that 136
attorneys agreed to participate and 96 accepted referrals. The grantee's
supporting documentation showed that 163 attorneys agreed to participate and
40 accepted referrals in 2002. The inaccurate reporting occurred because data
and supporting documentation was not reviewed by a supervisor prior to
submission to LSC.

RECOMMENDATION

We recommend that the Executive Director:

5.     Establish procedures requiring the PA1 program director to review and
       verify data on the J-I report prior to its submission to LSC.



                                   BACKGROUND

Central California Legal Services, Inc. is a non-profit corporation established to
provide legal services to indigent persons who meet applicable eligibility
requirements. This grantee is headquartered in Fresno, California, with branch
offices in Merced and Visalia. The grantee has total staffing of approximately 60
employees, about one third of whom are attorneys. The grantee received an
LSC basic field grant of $2,181,186 for 2002. The PA1 program, as reflected in
the statistical data, focuses on family law cases (70%) with a high percentage of
limited service cases (90%).



             OBJECTIVES, SCOPE AND METHODOLOGY

The purpose of the audit was to evaluate compliance with requirements
established in 45 CFR 1614, relating to private attorney involvement (PAI),
including effectiveness and efficiency of PA1 programs (Sec. 1614.l(c)). The on-
site portion of this audit was performed from January 26, 2004 to January 28,
2004. This audit is part of a series of audits of PA1 the OIG will conduct at a
representative number of LSC grantees to identify systemic weaknesses as well
as "best practices." The audit was performed in accordance with Generally
Accepted Government Auditing Standards.

The audit covered the period from January 1,2002, through December 31,2002,
focusing on statistical and accounting data reported for that time period. The
OIG reviewed grant applications, audited financial statements and statistical data
reported. The OIG interviewed the Executive Director and the Volunteer Legal
Services Program (VLSP) Director (in-house pro bono program coordinator) as
well as the Fiscal Director at the headquarters office in Fresno. In addition, the
OIG interviewed the Managing Attorney and the paralegal who coordinated the
pro se clinic at the Visalia Office. The OIG performed the following specific tests:

      Planning - Reviewed and evaluated the grant application for 2002.
      Interviewed Office of Performance and Planning and the Office of
      Compliance and Enforcement staffs to obtain background on prior reviews
      and evaluations. Interviewed the Executive Director and VLSP Director to
      evaluate planning for prioritizing legal needs and for obtaining feedback
      from community organizations and clients on PA1 legal services provided.

                -
      Statistics Traced statistical reports (Case Statistical Reports) to closed-
      case listings for PA1 cases. Tested samples of cases for each of the two
      offices where PA1 cases were reported to verify existence, LSC eligibility,
      type of case and level of service. Tested the accuracy of data reported on
      the J-I Report-Components of PA1 by tracing the data to supporting
      documentation.

      Accounting - Reviewed and evaluated the grantee's audited financial
      statements for 2002. Tested a sample of direct PA1 disbursements, tracing
      expenditures to source documentation submitted by vendors and
      evaluating relevance to the PA1 program. Compared a listing of individuals
      who had terminated employment with the grantee in the past two years to
      verify compliance with the prohibition on paying these former employees,
      including reduced-fee contracts for PAI. Evaluated the reasonableness of
      time charged to PA1 by grantee employees, related indirect costs and
      internal controls over accounting for PAI.

      Oversight - Reviewed self-inspections for 2002. Tested samples of open
      andlor recently-closed cases to evaluate the timeliness of follow-up and
      case closure.

      Productivity - Evaluated statistical and accounting data to assess the
      productivity of the grantee's overall PA1 program by comparing this data to
      national averages. Compared productivity between the PA1 programs at
      the grantee's two offices.
SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT AND
                 THE OIG'S RESPONSE


GRANTEE COMMENT-OVERSIGHT AND FOLLOW-UP

The grantee took exception to the statement that CCLS had not
implemented procedures requiring staff to periodically follow up with
private attorneys to determine the status of cases. The PA1 coordinator
had frequent, informal contact with PA1 attorneys and received "informal
updates" on the cases. In 2002, the grantee identified systemic, formal,
documented follow-up on cases with PA1 attorneys at least quarterly as an
area that needed improvement. Further, CCLS indicated that the new
CCLS coordinator had implemented the new procedures requiring
documented follow-up beginning in October 2003, when the new PA1
coordinator was hired.

The grantee indicated that the recommendation has been implemented.

OIG RESPONSE

The OIG modified the finding and recommendation to reflect the grantee's
adoption of systemic, formal, documented follow-up. For most of the time
that the sampled cases were open, however, such a system was not in
place.

GRANTEE COMMENT-PRODUCTIVITY

CCLS agreed with the finding that there is a need to increase productivity,
but disagreed with the "focus" in the finding on reduced fee contracts.
CCLS stated that payment of reduced fee contracts to some attorneys
would make recruitment of pro bono attorneys more difficult. An analysis
was provided of possible reduced fee contract expenses, assuming a fairly
high hourly rate ($100) and a substantial number of hours (IOOO), that
showed a total expense of $100,000. CCLS concluded that such an
additional cost would reduce legal services that they could provide.

The grantee agreed to the recommendation except for consideration of
reduced fee contracts.


OIG RESPONSE

The OIG disagrees with the comments. The use of reduced fee contracts
would not necessarily make recruiting pro bono attorneys more difficult.
For example, CCLS could utilize reduced fee contracts only in those rural
areas where there are currently few or no pro bono representations. CCLS
could continue to rely exclusively on pro bono representations in less rural
areas where attorneys are more readily available. Such a model of both
pro bono and reduced fee representations is successfully utilized by other
recipients. The CCLS assumption that there would be "additional costs"
amounting to $100,000 is not necessarily valid. For example, CCLS could
reduce the number of staff hours currently dedicated to coordinating PA1 by
the cost of any reduced fee contract payments. Absent a substantial
increase in pro bono cases, the need for dedicating two full-time
employees is questionable. In any case, the OIG offered the use of
reduced fee contracts as one option to increase productivity. The report
does not "focus" on the contracts, but suggests that they are one
alternative way of improving PA1 productivity.


GRANTEE COMMENT-PA1 EXPENDITURES

The grantee disagreed with the finding that its PA1 expenditures were
$9,356 less than required in 2002. First, CCLS does not agree that
$16,165 charged to PA1 for consulting fees for advice on fundraising is
unrelated to PAI. According to the grantee, this consulting fee was paid for
the specific purpose of developing a private bar campaign designed to
promote and encourage private attorneys to donate money and time to
CCLS. Further, CCLS argues that attorneys who donate time to legal aid
are also likely to donate money and vice versa. CCLS also disagreed with
the OIG's conclusion that a $2,600 charge to PA1 for quarterly newsletters
in 2002 was excessive. CCLS stated that approximately 65 to70 percent
of persons on the newsletter mailing list were private attorneys and that the
allocation of charges ($2,600 of the total $4,000 cost) to PA1 is reasonable.

The grantee agreed to implement procedures addressing the staff time
overcharges portion of the recommendation, but did not agree with the
other overcharges.

The grantee did not agree to the recommendation to request a waiver,
arguing that they exceeded the PA1 expenditure requirement.

OIG RESPONSE

The OIG disagrees with CCLS on both the consulting fee for fundraising
and on the allocation for the newsletters.

The consulting contract details the following work efforts:

       "(1) Assessing the          potential for      increased financial
       support...including private bar fundraising, government funding, cy
       pres awards, foundation, corporate and other private support.,
       (2) Special emphasis on assessing the potential for increasing
       support through an annual private bar campaign as well as through
       foundation and corporate funders., (3) Reviewing, evaluating and
       making recommendations on the organizational capacity of CCLS
       to develop and implement appropriate fundraising activities.,
       (4) Providing training to CCLS staff and board of directors to
       increase their capacity to engage in successful local fundraising.,
       (5) Assist in the development of an effective strategy for marketing
       the work of CCLS to the funding and broader community.,
       (6) Providing such other support as may be necessary to assist in
       the formation of achievable fundraising goals and strategies ....'I




Although CCLS's assertion that attorneys who donate money to legal aid
are also likely to donate time may be valid, the express purpose of this
contract was to improve fundraising. This expenditure is not allowable as
a PA1 expenditure.

The OIG disagrees with CCLS that the number of private attorneys as a
percentage of all those receiving its newsletter provides a reasonable basis
for allocation to PAI. The Fall 2003 issue was seven pages long and
includes only one explicit reference to PAI--a one half page notice
encouraging participation in the Fresno County Bar Association Pro Bono
Services Section. The newsletter primarily focuses on staff updates, CCLS
Case Briefs and CCLS community activities. Consequently, the OIG
applied a generous 15% ($600) in computing the appropriate allocation for
PAl-this    exceeds the PA1 expenditures as a percentage of total
expenditures.

GRANTEE COMMENT-STATISTICAL REPORT

The grantee agreed to the recommendation to establish procedures
requiring the PA1 program director to review and verify data on the J-I
report.
                                                                                                                                     APPENDIX I

                      LPrrOmasof
                      CENTRAL CALIFORNLA LEGAL SERVICES, INC.
                                    1999 Tuolumne Stteet, S~te   700, Fresno, California 93721
                                     Telephone: (559) 570-1200 O Facsimile: (559) 441-7215
                                       Toll-Free: (800) 675-800 14* www.cenualcallegal.org




Mr.Leonard J. Koczur
Acting Inspector General
Legal Services Corporation
3333 K.Street, NW, 3d Floor
Washington, CD 20007-3522

                                                            Via Fax: 202-337-6616
                                                            Original to follow via USPS


Re: Draft Audit of Private Attorney Involvement Program
    Grantee: Central California Legal Services
    Recipient No. 805060
    Comments of the Grantee

Dear Mr. Koczur:

Enclosed please find the comments of Central California Legal Services concerning the above
referenced report.

If you have any questions please contact me at 559-570-1214.

I thank you for the courtesy and cooperation of your staff members who conducted the audit.

Sincerely,


Chris A. Schneider
Executive Director




cc: CCLS Board Members




      0   Merccd: 357 W.Mpn Suet,Suite 201,Mnccd, Cabfomia, 95340,Telephone (209) 723-5466,Toll-her(8m4643111,F d e -009) 723-1315
      0   V i d z 208 W.Main S u e h t e U-1,V
                                             &  GLifomb, 93291,Tdephonr (559)733-8770,Ton-fie(BW) 350-3654.Fxnmile (559)6358096




                                                                    1-1
      Central California Legal Services
           Recipient No. 805060

Comments on Draft Audit of Grantee's Private
     Attorney Involvement Program


               July 26,2004

               Prepared by:

            Chris A. Schneider
             Executive Director
      Central California Legal Services
       CCLS hereby submits these comments to the draft audit report of the Legal
Services Corporation (LSC), Office of Inspector General (OIG).

Results of Audit

       CCLS requests that the final audit report reflect the following:

        CCLS has taken steps to provide better oversight and follow-up for cases referred
to private attorney (1614.3(d)(3)). Prior to the audit CCLS had recognized that its prior
informal oversight efforts needed improvement and began to take steps to do so.

       CCLS agrees that productivity is important, but disagrees with the OIG's
suggestion that "in order to close sufficient PAT cases to meet the goal that the market
value of PA1 activity substantially exceeded the costs as stated in (1614.l(c)), CCLS
should consider instituting reduced-fee panels."

      CCLS disagrees with the OIG's conclusion that it failed to meet its 12.5 percent
expenditure requirement in 2002.

       CCLS has agreed to establish a procedure requiring the PA1 director to review
and verify data on the J-1 report prior to its submission to LSC.

Findings and Recommendations

CCLS comments on the finding and recommendations as follows:

Oversight and Follow-up

       CCLS takes exception to the following statement:

       "The grantee had not implemented procedures requiring the staff to periodically
follow-up with private attorneys to determine the status of the cases."

       During the audit the Executive Director informed the auditors of several
important facts which are not reflected in this finding.

        The Executive Director pointed out that the cases that tend to stay open for longer
periods of time are complicated family law matters. Such cases are, by nature, held open
longer than others. The number of PAI attorneys accepting the complicated family law
cases was relatively few. The CCLS PA1 coordinator had frequent, informal contact
(such as at Bar functions, Domestic Violence Roundtable meetings, CCLS functions,
etc.) with those attorneys and received informal updates on the cases.

       In 2002 CCLS undertook a program restructuring, including a restructuring of the
Voluntary Legal Services Program (VLSP). During that time the VLSP coordinator
accepted a position with a private law firm. CCLS contracted with an attorney who had
numerous years of experience with the nationally recognized, award-winning San
Francisco Bar Association Voluntary Legal Services Program (BASFNLSP) to help in
the restructuring of the CCLSNLSP. Among the areas identified for improvement was a
systemic, formal, documented follow-up procedure that involved at least quarterly
contact with PAI attorneys. When the new VLSP coordinator was hired in October 2003
CCLS implemented that system, which was in effect at the time of the OIG audit.

        The report should recognize that CCLS itself had identified this issue and had
taken steps to implement and document quarterly contact with PAI attorneys before the
audit occurred.

Recommendation

As indicated above, CCLS itself identified the need for more frequent follow-up with PAI
attorneys and had begun such follow-up prior to the OIG visit.

Productivity

        CCLS does not disagree with the need to increase productivity. That was the
specific purpose of the restructuring of the CCLSNLSP program in that mid part of
2002. It was with that goal in mind that CCLS obtained the services of someone with
extensive experience with BASFNLSP.

       CCLS is very concerned with the draft audit's particular focus on "reduced fee
contracts" and the failure of the draft audit to reflect the dialogue the auditors and the
Executive Director had about this issue during the visit.

        During the site visit the Executive Director discussed this issue several times
with the auditors. He informed them that such an approach had indeed been considered
by CCLS and was not implemented. CCLS is convinced that a "redkcedfee panel"
would infact reduce the amount of legal services available to our client community by
reducing the amount of pro bono activity and decreasing the number offill time st@
attorneys on CCLS stafS The Executive Director articulated the reasons that CCLS
believes this to be true.

        CCLS provides services in six mostly rural counties. Even in the largest urban
center in our service area, the number of attorneys providing pro bono work is relatively
few. If CCLS were to pay a reduced fee to some attorneys to take cases and ask others to
provide their services pro bono we believe that the pro-bono recruitment would become
even more difficult.

        Assuming that CCLS moved to a reduced fee panel, we would still need a VLSP
coordinator and support staff. CCLS would need to expend other fbnds for the payment
of the reduced fee. Thus, the only line item this could come from is personnel.
        Ewe paid a reduced fee of $100 per hour for 1000 hours of private attorney time,
the cost would be $100,000. One hundred dollars per how is almost double the hourly
rate, with benefits, of CCLS's most senior and most experienced attorney and four times
the hourly rate, with benefits, of our entry level attorneys.

       Thus, to have $100,000 to purchase 1000 hours of private attorney time at
reduced fees, CCLS would eliminate two full-time entry level attorney positions. There
would be a net loss of about 3,000 hours of attorney time available to our clients. This
does not factor in the additional loss of pro-bono time from private attorneys.

Recommendation

        CCLS will monitor our restructured PAI program to evaluate its effectiveness and
will consider adopting alternative methods of delivery if we determine that such methods
will result in a net increase in the availability of legal services to our client community.
We see no need to hrther consider reduced fee panels at this time.

PA1 Expenditures

CCLS disagrees that its PA1 expenditures were $9,356 less than required in 2002. In our
view, our PAI expenditures were $281,457. This amount is $8,809 more than required
under Part 16 14.

        During the audit CCLS discovered that all, rather than a part of, costs of salaries
and benefits of two intake workers charged as PAI expenditures. We met with the staff
involved and took corrective action to insure that the problem would not reoccur. We
then informed the auditors of our finding and of the corrective action taken. We agree
that the $64,547 for the intake worker's salaries should not have been counted as PAI
expenditures.

      However, we disagree with the OIG's conclusions with regard to two other PA1
expenditures. First, the draft audit states:

       "The grantee charged $16,165 to PAI for consulting fees paid to an out-of-state
contractor for advice on improving fund-raising. The consultant's work was unrelated to
PAI."

        The auditors failed to include key information which CCLS provided them. The
"out-of-state contractor" was Dennis Dorgan of the Management Information Exchange
(ME). CCLS contracted with MIE and Mr. Dorgan for the specific purpose of
developing a "private bar campaign" designed to promote and encourage private
attorneys to donate money and time to CCLS. Called "The Campaign for Legal Aid"
(CLA), the private bar campaign ties directly into and is an integral part of CCLS's multi-
prong strategy to increase pro bono involvement. It has been demonstrated numerous
times that attorneys who donate time to legal aid are also likely to donate money to legal
aid and vice-versa.
       In addition to launching the Campaign for Legal Aid, CCLS staff and members of
CLA were involved in the creation of the Fresno County Bar Association (FCBA) Pro
Bono Section (PBS). The PBS spearheaded an effort to get the FCBA to adopt its first
ever pro bono resolution.

        The Campaign for Legal Aid involves meeting with private attorneys to
encourage them and their firms to become more involved with CCLS. It is designed to
raise the awareness of the work of CCLS in the private bar community and to develop on-
going financial and volunteer support for CCLS.

       The American Bar Association encourages CLA type activity as a way for
attorneys to meet their ethical obligation to providepro bono services.


       RULE 6.I VOLWTARY PRO BONO PUBWCO SERYI%E

      Evely lawyer has a professioonal responsibility toprovide legal services to those
      unable to pay. A lawyer should aspire to render at least (50) hours of pro bono
      public0 legal services per year. InJicIfiZZing this re.sponsibilily, the lawyer should:

       (a) provide a substantial majority of the (50) hours of legal services withoutfee or
       expectation offee to:

       (I) persons of limited means or

      (2) charitable, religrous, civic, community, governmental and educational
      organizations in matters which are designedprimarily to &ess the needs of
      persons of limited means; and

       (b) provide any additional services through:

      (I) &livery of legal services at nofee or substantially reducedfee to individuals,
      groups or organizations seeking to secure or protect civil rights, civil liberties or
      public rights, or charitable, religious, civic, community, governmental and
      educational organizations in matters infirtherance of their organizational
      purposes, where the payment of standard legalfees w d d signIficantZy deplete
      the organization's economic resources or wouZd be otherwise inappropriate;

       (2) delivery of legal services at a substantial& redixedfee topersons of limited
       means; or

      (3) participation in activitiesfor improving the law, the legal system or the legal
      profession.
       In addition, a lawyer should voluntarily contributefinancial support to
       organizations that provide legal services to persons of limited means. (Emphasis
       added.)



Comments 9 and 10 to Model Rule 6.1 are particularly instructive:

       [9] Because the provision of pro bono services is a professional responsibility, it
       is the individual ethical commitment of each lawyer. Nevertheless, there mqv be
       times when it is notfeasible for a lawyer to engage in pro bono services. At such
       times a lawyer may discharge the pro bono responsibility by providing financial
       support to organizationsproviding free legal services to persons of limited
       means. Suchfinancial support shmld be reasonably equivalent to the value of the
       hours of service that would have otherwise beenprovided. In addition, at times it
       may be morefeasible to satis& the pro bono responsibility collectively, as by a
       fimt's aggregate pro bono activities. (Emphasisprovided)
        [lo] Because the eflorts of individual lawyers are not enough to meet the needfor
       free legal services that exists amongpersons of limited means, the government
        and the profession have instituted &tional programs to provide those services.
        Every lawyer shouldfnancially support such programs, in addition to either
       providing direct pro bono services or makingfinancial contributions when pro
        bono service is not feasible. (Emphasisprovided.)

      The draft audit's characterization of CLS as merely "fbnd-raising" is misleading.
The consulting fees paid to M E for the development of a CLA are clearly allowable PAI
expenditures. Consequently CCLS exceeded its PAI expenditure obligation in 2002.

       Second, the draft audit states:

        "The grantee also charged $2,600 of the $4,000 total cost of a quarterly newsletter
to the PAI program. The newsletters were directed to a broad array of organizations and
clients served by the grantee. PA1 should have been charged in proportion to its
percentage of total finding. We estimated that $600 was the appropriate amount that
should have been allocated to PAI."

        Once again the draft report fails to include pertinent factual information provided
by CCLS to the auditors. As drafted, the report makes it appear that the $2,600 was an
arbitrary amount which CCLS applied to PA1 expenditures. It was not.

       CCLS estimated that during 2002 approximately 65%-70% of the persons on our
newsletter mailing list were private attorneys. The newsletter is another integral part of
CCLS's strategy to promotepro bono. We focus the newsletter mailing list on private
attorneys in order to make them aware of opportunities for them to become involved in
the delivery of legal services to our client community. In the newsletter we publicize the
work of pro-bono attorneys, pro bono section activities, CLA, solicit volunteers, etc.

       The $2,600 represents 65% of the overall cost of the newsletter. That is, we
charge off as PAI an amount equal to the approximate percentage of persons on the
newsletter mailing list who are private attorneys. We believe that if the mailing list
included only private attorneys, then the OIG would not question allocating 1 0 W of the
expenditure as PAI. Therefore, we believe it is reasonable and correct for us to charge as
PA1 expenditures the approximate percentage of the mailing list members who are private
attorneys. The allocation for 2002 should remain at $2,600 resulting in CCLS having
further exceeded its PAI expenditure in 2002.



Recommendations

3. CCLS already established procedures to assure that the over charging of stafftime
does not reoccur. We believe that the other charges in 2002 were accurate and
reasonable.

4. We do not believe it is necessary for CCLS to request a waiver of the PA1 requirement
since CCLS in fact exceeded the requirement.



Statistical R e ~ o r t

        As indicated above, CCLS initiated a restructuring of its VLSP in 2002 after
concluding there was a need to improve our VLSP program. The long-time VLSP
coordinator left during that time and we had several interim coordinators. An unfortunate
result of the flux was that there was not an experienced VLSP coordinator in place at the
time of the submission of the 2002 J-1 Report.

Recommendation

5. CCLS agrees with this recommendation contained in the draft report.
                                                                           rage L or L


      10. Job Connection Mariposa


      11. Senior Services Office

      12. Mariposa County Public Library

      13. Mariposa Indian Health Center


      14. Kene Me-Wu Family Healing Center (Angels Camp)


      15. Mariposa County Behavioral Health 8 Recovery Services

      16. John C. F m o n f Healthcare District


      17. Community Adion Agency, Mariposa County Housing Authority

      (All are from the new Mariposa County Resource Guidejust received)


6. Weekly team report forms and "other matters" reporting

7.Merced computers
8. Annual awards reception September 30 (Luisa)
  Attorney lists for invitations

New business:

9. LSC renewal application (Luisa, Chris)

10. Malpractice insurance renewal question (Valerie, Chris)

11. Team items

12. Executive director items
                                                                                                rage I or   I




 Chris Schneider

 From:       "Matthew Pendola" <mpendola@unitedwayfresno.org~
 To:         <mpendola@unitedwayfresno.org>
 Sent:       Tuesday, July 20,2004 8:42 AM
 Attach:     Matthew Pendola (E-mail).vcf; Agency Project Request.pdF, DOC Agency Project Letter.doc
 Subject:    September 11th Day of Caring

Greetings,

United Way of Fresno County invites you to participate in our Annual Day of
Caring event. Our vision is to create a community wide day of volunteering.
Day of Caring is an annual United Way of Fresno County event in September
where volunteers work on one-day improvement projects at local nonprofit
agencies, schools and parks.

Day of Caring will be held on September 11,2004. This one-day event
connects individuals and employee volunteer groups with agencies in need of
assistance. It is one of the best ways for individuals to make an impact in
their community and for agencies to connect with people who want to help.
Relationships begun during Day of Caring have proven to be beneficial well
beyond the actual Day of Caring.

If your nonprofit has any one-day volunteer projects that that can fall on
September 1lth please fill out the attached Agency Project Registration
Form.

Or if you need ideas to create a volunteer project, give me a call.

The attached documents give you the needed information to participate.
Please read them carefully.

The deadline to participate is Friday July 30,2004. So get your volunteer
paperwork in early.

Thanks,



Matthew Pendola
Events & Volunteer Coordinator
United Way of Fresno County

Phone: 559.243.3664
Fax: 559.228.8159
mpendola@unitedwavfresno.o~g <mailto:mpendola@unitedwayfresno..~>
                                                                                                rage I or   J




 Chris Schneider

 From:       "Matthew Pendola" <mpendola@unitedwayfresno.org>
 To:         <mpendola@unitedwayfresno.org>
 Sent:       Tuesday, July 20,2004 8:42 AM
 Attach:     Matthew Pendola (E-mail).vcf; Agency Project Request.pdf; DOC Agency Project Letter-doc
 Subject:    September Ilth Day of Caring

Greetings,

United Way of Fresno County invites you to participate in our Annual Day of
Caring event. Our vision is to create a community wide day of volunteering.
Day of Caring is an annual United Way of Fresno County event in September
where volunteers work on one-day improvement projects at local nonprofit
agencies, schools and parks.

Day of Caring will be held on September 11,2004. This one-day event
connects individuals and employee volunteer groups with agencies in need of
assistance. It is one of the best ways for individuals to make an impact in
their community and for agencies to connect with people who want to help.
Relationships begun during Day of Caring have proven to be beneficial well
beyond the actual Day of Caring.

If your nonprofit has any one-day volunteer projects that that can fall on
September I 1th please fill out the attached Agency Project Registration
Form.

Or if you need ideas to create a volunteer project, give me a call.

The attached documents give you the needed information to participate.
Please read them caref?ully.

The deadline to participate is Friday July 30,2004. So get your volunteer
paperwork in early.

Thanks,



Matthew Pendola
Events & Volunteer Coordinator
United Way of Fresno County

Phone: 559.243.3664
Fax: 559.228.8159
mpendola@,unitedwayfresno.org ~mailto:mp~dola@unitedwayfresno~rg>
-
         Connecting the Dots -- Statewide Stakeholder Meeting
                                   Friday, August 27,2004
                                        San Francisco


Name:

Program:

Contact Information:

Address:

Phone:                                     Fax:


               Yes, I would like to make my voice be heard and join in planning for the fiture of
               legal services in California at the "Connecting the Dots" Statewide Stakeholders
               Meeting. (10:OO a.m. - 5:00 p.m.)

               Yes, I would like to attend the Media Event celebrating our statewide websites at
               LawHelpCalifornia.organd courtinfo.ca.gov. (12 noon)

               Yes, I would be pleased to toast my colleagues in the legal community who have
               provided outstanding services to clients, and to celebrate 20 years of the Legal
               Aid Association of California at the LAAC Awards of Merit and 2othyear
               Anniversary Reception (5 :00 p.m.)
               Enclosed is a check for $1 5 per person for Continental breakfast, lunch and
               materials. (Please specify if you would like a vegetarian lunch.)




Please mail, fax, or email this form to the Public Interest Clearinghouse, 47 Kearny Street, Suite
705, San Francisco, CA: Fax (415) 834-0202: slchoy@pic.org. For hrther inquiries, please
contact Stephanie Choy: (4 15) 834-0 100 ext. 304.
                                                  APPENDIX II


                         OIG On-Site Audit Team


David Geilman (Auditor-in-Charge)

Abel Ortunio
